OIG Audit Report GR-30-98-013
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Center for Effective Public Policy
Implementing Effective Sex Offender Management Strategies:
A Program of Training and Technical Assistance
Grant No. 97-WT-VX-K007
 
GR-30-98-0013
September 29, 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of cooperative agreement number 97-WT-VX-K007 (hereinafter "grant")
awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to the Center
for Effective Public Policy (Center). The Center received an award of $1,427,881 to
implement effective sex offender management strategies.
Our audit concentrated on, but was not limited to, the period of February 10, 1997
through May 31, 1998. We reviewed transactions to determine whether costs were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. We also reviewed requests for reimbursement and the accuracy and
timeliness of financial and progress reports.

In brief, our audit determined that:



Costs incurred were adequately supported and were otherwise allowable, allocable, and
      reasonable,




Excessive cash balances of grant drawdowns were maintained, which resulted in lost
      interest to the government because the Center did not maintain its grant funds in interest
      bearing accounts,




Financial and progress reports were not always submitted timely,




One financial report did not accurately reflect grant expenditures, and




Some activities planned to accomplish objectives of the grant were implemented more
      slowly than expected.


These items are discussed in detail in the FINDINGS AND RECOMMENDATIONS section of the
report. Our SCOPE AND METHODOLOGY appear in Appendix I.
#####